      UNITED STATES INTERNATIONAL TRADE CO:N1I\1lSSION

                               WASHINGTON, DC 20436

November 14,2005                                                             IG-CC-020



MEMORANDUM

TO:           Chairman
              Commissioners
              Director, Office of Administration
              Director, Office of External Relations
              Director, Office of Operations
              Director, Office of Facilities Management
              Secretary
              General Counsel

FROM:         Acting Inspector General     ~~
SUBJECT:      Inspector General's Indepen~  Audit Report of the U.S. International
              Trade Commission's Financial Statements for Fiscal Years 2005 and 2004
              and the Commission's Management Challenges
              Audit Report Number: OIG-AR-01-06

I am pleased to provide you with the attached audit report, which presents an unqualified
opinion on the U.S. International Trade Commission's financial statements for fiscal
years (FY) ended 2005 and 2004. We engaged the independent public accounting firm of
O'Connor & Drew, P.C. to perform the audits. The contract required that the audits be
done in accordance with Government Auditing Standards and OMB Bulletin No. 01-02,
Audit Requirements for Federal Financial Statements.

Additionally, as reported in our October 2005 Semiannual Report to the Commission and
to the Congress, the Office of Inspector General (OIG) considers the following to be the
top management challenges facing the Commission as identified by the OIG-as well as
recent OIG activities relating to each challenge:
                              Top Management Challenges

Competitive Sourcing -- The Commission has competitively contracted for information
technology services, certain editing and publishing services, mailroom and general labor
services, cleaning and building maintenance services, and security services. Private
sector contract employees comprise more than 10 percent of on-site personnel. In
addition, other services are acquired on an as-needed basis, such as virtually all
equipment maintenance services, application systems design and development, and
certain audit and financial services.

Improved Financial Performance -- In compliance with the Accountability of Tax
Dollars Act of 2002, the Commission produced financial statements, notes and a
management discussion and analysis for FYs ended 2005 and 2004. The OIG's audit
found no material weaknesses or reportable conditions and resulted in an unqualified
opinion on the statements. However, we will be making five recommendations to
strengthen internal controls related to property, cash, and procurement.

Budget and Performance Integration -- The Commission's efforts to link budgeting
with strategic planning have allowed Commission managers more effectively to compare
changes in workload with changes in cost. Budget formulation and execution activities
permit the allocation of virtually all costs to one of the five operations set forth in the
Strategic Plan. Specifically, because personnel costs are 75 percent of total costs, the
Commission uses the labor cost reporting system to collect work years and cost
information and attribute it directly to strategic operations when feasible. In doing so, the
Commission is able to determine whether resources are being allocated efficiently. The
performance goals and indicators in the Commission's Annual Performance Plan also
provide measures by which the agency's activities can be assessed.

Expanded Electronic Government -- Agency Inspectors General are to conduct an
annual independent evaluation of agency information security programs and practices.
Accordingly, we conducted the fifth annual comprehensive audit of the Commission's
information security program during this period. Our audit found the Commission made
limited progress in strengthening its information security program plan during FY 2005,
and we made 23 recommendations for improvement.

Strategic Management ofHuman Capital-- Human capital is the Commission's largest
resource, with salaries and personnel benefits representing approximately 75 percent of
the FY 2005 budget. The Commission maintains an expert staff of professional
international trade and nomenclature analysts, investigators, attorneys, economists,
computer specialists and administrative support personnel. More than one third of the
Commission's workforce is eligible to retire in the next 5 years. During FY 2005, the
Commission enrolled all senior managers in a 48-hour leadership training program
provided by the U.S. Office of Personnel Management's Federal Executive Institute.
    UNITED STATES
INTERNATIONAL TRADE
     COMMISSION

   FINANCIAL STATEMENTS

       SEPTEMBER 30, 2005
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                                  Financial Statements

                               September 30, 2005 and 2004


                                     CONTENTS




Independent Auditors' Report                                 1-5

Financial Statements:

      Balance Sheets                                         6

      Statements of Net Cost                                 7

      Statements of Changes in Net Position                  8

      Statements of Budgetary Resources                      9

      Statements of Financing                                10

      Statements of Custodial Activity                       11

      Notes to the Financial Statements                      12-21
INDEPENDENT AUDITORS' REPORT


Office of Inspector General, U.S. International Trade Commission


We have audited the accompanying balance sheets of the United States International Trade
Commission (USITC/Commission) as ofSeptember 30,2005 and 2004, and the related statements of
net cost, changes in net position, budgetary resources, financing, and custodial activity (hereinafter
referred to as the financial statements) for the years then ended. The objective of our audits was to
express an opinion on the fair presentation ofthe financial statements. In connection with our audits,
we also considered the Commission's internal control over financial reporting and tested the
Commission's compliance with certain provisions of applicable laws and regulations that could have
a direct and material effect on its financial statements.

SUMMARY

We found the following:

   •   The financial statements referred to above are fairly presented, in all material
       respects, and in conformity with accounting principles generally accepted in the
       United States of America,

   •   The Commission had effective internal control over financial reporting (including
       safeguarding of assets) and compliance with laws and regulations,

   •   The Commission's financial management systems substantially complied with the
       applicable requirements ofthe Federal Financial Management Improvement Act of
       1996 (FFMIA), and

   •   No reportable noncompliance matters with laws and regulations.


The following sections discuss in more detail (1) these conclusions and our conclusions on
Management's Discussion and Analysis and (2) the scope of our audits.
                                 Opinion on Financial Statements

We have audited the accompanying balance sheets ofthe Commission as ofSeptember 30,2005 and
2004, and the related statements ofnet cost, changes in net position, budgetary resources, financing,
and custodial activity for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position ofthe USITC as of September 30,2005 and 2004, and its net costs, changes in net
position, budgetary resources, reconciliation of net costs to budgetary obligations, and custodial
activity for the years then ended, in conformity with accounting principles generally accepted in the
United States of America.

Our audits were conducted for the purpose offorming an opinion on the financial statements taken as
a whole. The information in the Management Discussion and Analysis section and the Management
Challenges identified by the Inspector General are not required components of the financial
statements, but are supplementary information required by accounting principles generally accepted
in the United States ofAmerica or OMB Bulletin No. 01-09, Form and Content ofAgency Financial
Statements . We have applied certain limited procedures, which consisted principally ofinquiries of
management regarding the methods ofmeasurement and presentation ofthis information. However,
we did not audit this information and, accordingly, we express no opinion on it.

                            Internal Control Over Financial Reporting

Our consideration of internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be material weaknesses under
standards issued by the American Institute of Certified Public Accountants. Material weaknesses are
conditions in which the design or operation of one or more of the internal control components does
not reduce to a relatively low level the risk that misstatements caused by error or fraud, in amounts
that would be material in relation to the financial statements being audited, may occur and not be
detected within a timely period by employees in the normal course of performing their assigned
functions. We noted no matters involving the internal control and its operation that we considered to
be material weaknesses as defined above.

However, we noted other matters involving internal control financial reporting and its operation that
we have reported to the management of USITC in a separate restricted use report.

                              Compliance with Laws and Regulations

The results of our tests of compliance with other laws and regulations, exclusive of the Federal
Financial Management Improvement Act (FFMIA), disclosed no instances ofnoncompliance that are
required to be reported under Government Auditing Standards or OMB Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements. However, the objective of our audit was not to
provide an opinion on overall compliance with laws and regulations. Accordingly, we do not express
such an opinion.




                                                 - 2-
                                 Opinion on FFMIA Compliance

In our opinion, the Commission's financial management systems substantially complied with the
three FFMIA requirements: (1) Federal financial management system requirements, (2) Federal
accounting standards, and (3) the U.S. Government Standard General Ledger (SGL) at the
transaction level, as of September 30, 2005 and 2004.

                                  Management's Responsibility

The Accountability of Tax Dollars Act of 2002 requires each federal agency to report annually to
Congress on its financial status and any other information needed to fairly present its financial
position and results of operations. To meet the reporting requirements, the USITC prepares annual
financial statements.

Management is responsible for the financial statements, including:

    •   Preparing the financial statements in conformity with accounting principles
        generally accepted in the United States of America,

    •   Establishing and maintaining internal controls over financial reporting, and
        preparing the Management Discussion and Analysis (including performance
        measures), and

    •   Implementing, maintaining, and assessing financial management systems to
        provide reasonable assurance of substantial compliance with the requirements of
        FFMIA, and

    •   Complying with applicable laws and regulations.

In fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies. Because of inherent limitations in
internal control, misstatements due to error or fraud may nevertheless occur and not be detected.

                           Auditors' Responsibility and Methodology

Our responsibility is to express an opinion on the fiscal year 2005 and 2004 financial statements of
USITC based on our audits. We conducted our audits in accordance with auditing standards
generally accepted in the United States of America, the standards applicable to financial audits
contained in Government Auditing Standards, and OMB Bulletin No. 01-02. Those standards and
OMB Bulletin No. 01-02 require that we plan and perform the audits to obtain reasonable assurance
about whether the financial statements are free from material misstatement.




                                               -3-
An audit includes:

        -Examining, on a test basis, evidence supporting the amounts and disclosures in the
        financial statements;

       -Assessing the accounting principles used and significant estimates made by
       management, and

        -Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2005 and 2004 audits, we considered the USITC's
internal control over financial reporting by obtaining an understanding ofthe Commission's internal
control, determining whether internal controls had been placed in operation, assessing control risk,
and performing tests of controls in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial statements. We limited our internal control testing to those
controls necessary to achieve the objectives described in OMB Bulletin No. 01-02 and Government
Auditing Standards . We did not test all internal controls relevant to operating objectives as broadly
defined by the Federal Managers' Financial Integrity Act of 1982. The objective of our audits was
not to provide assurance on internal control over financial reporting. Consequently, we do not
provide an opinion thereon.

As required by OMB Bulletin No. 01-02, with respect to internal control related to performance
measures determined by management to be key and reported in the Management Discussion and
Analysis, we obtained an understanding of the design of significant internal controls relating to the
existence and completeness assertion. Our procedures were not designed to provide assurance on
internal control over performance measures and, accordingly, we do not provide an opinion thereon.

As part of obtaining reasonable assurance about whether the Commission's fiscal year 2005 and
2004 financial statements are free ofmaterial misstatement, we performed tests ofthe Commission's
compliance with certain provisions oflaws and regulations, noncompliance with which could have a
direct and material effect on the determination offinancial statement amounts, and certain provisions
of other laws and regulations specified in OMB Bulletin No. 01-02, including certain provisions
referred to in FFMIA. We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws and regulations applicable to the
Commission. Providing an opinion on compliance with laws and regulations was not an objective of
our audits, and, accordingly, we do not express such an opinion.

Under OMB Bulletin No. 01-02 and FFMIA, we are required to report whether the Commission's
financial management systems substantially comply with (1) Federal financial management systems
requirements, (2) applicable Federal accounting standards, and (3) the United States Government
Standard General Ledger at the transaction level. To meet this requirement, we performed tests of
compliance with FFMIA Section 803(a) requirements.


                                                - 4-
                                      Distribution

This report is intended solely for the information and use of USlTC's management, the USlTC's
Office of the Inspector General, OMB, and the U.S. Congress, and is not intended to be and should
not be used by anyone other than these specified parties. However, this report is a matter ofpublic
record and its distribution is not limited.




O'Connor & Drew, P.C.

Certified Public Accountants

October 31, 2005




                                               -5-
         UNITED STATES
INTERNATIONAL TRADE COMMISSION

             Balance Sheets


       September 30, 2005 and 2004
                           UNITED STATES
                  INTERNATIONAL TRADE COMMISSION

                                             Balance Sheets

                                             September 30,
                                              (in dollars)


Assets:
   Intragovemmental
       Fund Balance with Treasury (Note 3)                                  $ 10,866,911    $ 11,249,689
       Accounts Receivable (Note 4)                                              347,720
  Total Intragovernmental                                                     11,214,631        11,249,689
   Accounts Receivable, Net (Note 5)                                             501,635           756,981
   Prepaid Expenses (Note 6)                                                     208,000
   Equipment (Note 7)                                                          3,320,719        2,493,449

Total Assets                                                                $ 15,244,985    $ 14,500,119

Liabilities:
   Intragovemmental
      Employer Contributions and Payroll Taxes Payable (Note 8)             $     110,496   $      91,478
      Other (Note 8)                                                              742,786       1,003,036
   Total Intragovernmental                                                        853,282       1,094,514
   Accounts Payable (Note 8)                                                    1,884,026         763,165
   Accrued Funded Payroll (Note 8)                                              1,080,842         941,067
   Withholdings Payable (Note 8)                                                  632,593         538,059
   Unfunded Leave (Note 8)                                                      2,948,491       2,960,006
   Total Liabilities                                                            7,399,234       6,296,811

Net Position:
   Unexpended Appropriations (Note 3)                                           7,265,523       8,669,865
   Cumulative Results of Operations                                               580,228        (466,557)
   Total Net Position                                                           7,845,751       8,203,308

Total Liabilities and Net Position                                          $ 15,244,985    $ 14,500,119




The accompanying notes are an integral part ofthese financial statements.
                                                   -6-
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION

                                 Statements of Net Cost

                         For the Years Ended September 30,
                                     (in dollars)

                                                               2005              2004

Intragovernmental Costs                                   $    8,182,544    $    6,680,990

Costs with the Public                                         53,066,006        48,034,896

Cost Not Assigned to Programs (Note 10)                          (11,516)          40,925

Total Net Cost                                            $ 61,237,034      $   54.756.811




The accompanying notes are an integral part ofthese financial statements.

                                            -7-
                                               UNITED STATES
                                      INTERNATIONAL TRADE COMMISSION

                                                   Statements of Changes in Net Position

                                                    For the Years Ended September 30,
                                                                (in dollars)

                                                                   2005              2005               2004               2004

                                                           Cumulative Results     Unexpended      Cumulative Results   Unexpended
                                                             of Operations       Appropriations     of Operations      Appropriations


I
     Balances, Beginning of Fiscal Year                        $    (466,557)     $ 8,669,865        $ (2,728,714)     $ 5,599,248
co   Prior Period Adjustment (Note 11)                                                                  2,407,925
I
     Beginning of Fiscal Year, Restated                             (466,557)       8,669,865            (320,789)        5,599,248

     Budgetary Financing Sources:
        Appropriations Received
        Appropriations-Used
        Other Adjustments
     Total Financing Sources
         Other Adjustments
     Total Financing Sources

     Net Cost of Operations

     Balances, End of Fiscal Year




     The accompanying notes are an integral part ofthese financial statements.
                         UNITED STATES
                INTERNATIONAL TRADE COMMISSION
                             Statements of Budgetary Resources

                             For the Years Ended September 30,
                                         (in dollars)



Budgetary Resources:
  Budget Authority:
      Appropriations Received (Note 1)                              $ 61,700,000        $ 58,295,000

  Unobligated Balance:
      Beginning of Fiscal Year                                              777,708          375,256
 Spending Authority From Offsetting Collections Earned:
     Collected (Note 12)                                                      14,268          14,536
 Recoveries of Prior Year Obligations (Note 12)                              636,623         685,329
 Cancellation of Expired and No Year Accounts                                   (408)
 Permanently Not Available (Note 1)                                         (824,115)        (613,341)

  Total Budgetary Resources                                         $ 62.304.076        $ 58,756,780

Status of Budgetary Resources:
  Obligations Incurred - Direct                                     $ 60,109,360        $ 57,979,072
  Unobligated Balance - Available                                       2,194,716            777,300
  Unobligated Balance - Not Available                                                            408

  Total Status of Budgetary Resources                               $ 62.304.076        $ 58,756,780

Relationship of Obligations to Outlays:
  Obligated Balance, Net, Beginning of Fiscal Year                  $ 10,218,945        $   7,045,868
  Obligated Balance, Net, End of Fiscal Year:
      Undelivered Orders                                                5,070,807           7,892,157
      Accounts Payable                                                  3,358,603           2,326,788

Total Net Obligated Balance, End of Fiscal Year                     $   8.429.410       $ 10,218,945

  Outlays:
       Disbursements                                                $ 61,262,272        $ 54,120,666
       Collections                                                           (14,268)        (14,536)

    Net Outlays                                                     $ 61.248.004        $ 54,1 06,130



The accompanying notes are an integral part ofthese financial statements.

                                                -9-
                                                    UNITED STATES
                                           INTERNATIONAL TRADE COMMISSION
                                                                Statements of Financing

                                                        For the Years Ended September 30,
                                                                    (in dollars)
                                                                                                2005             2004
      Resources Used to Finance Activities:

        Budgetary Resources Obligated:
          Obligations Incurred                                                              $ 60,109,360    $ 57,979,072
          Less: Spending Authority From Offsetting Collections/Adjustments (Note 12)             650,891           699,865
           Total Budgetary Resources Used to Finance Activities                               59,458,469        57,279,207

         Other Resources:
            Other                                                                                  4,000

I            Total Resources Used to Finance Activities                                       59,462,469        57,279,207
f-l
o     Resources Used to Finance Items Not Part of the Net Cost of Operations:
I

           Change in Budgetary Resources Obligated for Goods, Services, and Benefits
            Ordered but Not Yet Provided                                                      (2,821,351)        2,668,165
           Resources That Finance the Acquisition of Assets                                    1,362,575           348,094
           Resources That Finance the Prepaid Expenses                                           208,000    -------

            Total Resources Used to Finance Items Not Part of the Net Cost of Operations      (1,250,776)        3,016,259

             Total Resources Used to Finance the Net Cost of Operations                       60,713,245        54,262,948

      Components of Net Cost of Operations That Will Not Require or
       Generate Resources in the Current Period:

       Components Requiring or Generating Resources in Future Periods:
         Increase in Annual Leave Liability (Note 13)                                            (11,516)          40,925

       Components Not Requiring or Generating Resources:
         Depreciation and Amortization                                                           535,305          452,938

            Total Components of Net Cost of Operations That Will Not Require or
            Generate Resources in the Current Period                                             523,789          493,863

            Net Cost of Operations                                                          $ 61.237,034    $   54,756811

      The accompanying notes are an integral part ofthese financial statements.
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION

                           Statements of Custodial Activity

                         For the Years Ended September 30,
                                     (in dollars)



Revenue Activity:
 Cash Collections - Penalties                                   $ 250,000       $     250,000
 Accrual Adjustments                                              (250,000)           750,000
 Total Custodial Revenue (Note 14)                                                  1,000,000

Disposition of Collections:
Transferred to Treasury                                             (250,000)
 Increase in Amounts Yet to be Transferred                           250,000        (1,000,000)

Net Custodial Activity                                          $




The accompanying notes are an integral part ofthese financial statements.

                                             - 11 -
                     UNITED STATES
            INTERNATIONAL TRADE COMMISSION
                            Notes to the Financial Statements

                               September 30, 2005 and 2004


Note 1. Significant Accounting Policies

   A. Reporting Entity - The United States International Trade Commission (USlTC) is an
      independent agency of the U.S. Government created by an act of Congress and is headed by
      six commissioners, appointed by the President and confirmed by the U.S. Senate for nine-
      year terms. The President designates the chairman and vice chairman, each ofwhom serve
      two-year terms.

       The USlTC conducts investigations and reports findings relating to imports and the effect of
       imports on industry, and unfair import practices. The USlTC advises the President on the
       probable economic effect ofproposed trade agreements with foreign countries. The USlTC
       also conducts analytical studies and provides reports on issues relating to international trade
       and economic policy on behalf of both the Congress and President.

   B. Basis of Accounting and Presentation - USlTC's financial statements conform to U.S.
      Generally Accepted Accounting Principles (GAAP) as promulgated by the Federal
      Accounting Standards Advisory Board (FASAB). The American Institute ofCertified Public
      Accountants (AlCPA) recognizes FASAB Standards as GAAP for federal reporting entities.
      These principles differ from budgetary reporting principles. The differences relate primarily
      to the capitalization and depreciation ofproperty and equipment, as well as, the recognition
      of other long-term assets and liabilities. The statements were prepared in conformity with
      OMB Bulletin 01-09, Form and Content ofAgency Financial Statements, as updated by
      OMB A-136 Financial Reporting Requirements, August 23,2005.

      The financials have been prepared from the books and records of the USlTC and include all
      accounts of all funds under the control of the USITC. Accounting principles generally
      accepted in the United States ofAmerica encompass both accrual and budgetary transactions.
      Under the accrual method, revenues are recognized when earned and expenses are recognized
      when a liability is incurred, without regard to receipt or payment of cash. Budgetary
      accounting facilitates compliance with legal constraints and controls over the use of federal
      funds. The accompanying financial statements are prepared on the accrual basis of
      accounting. The USITC's fiscal year is October 1 through September 30. Fiscal year 2005
      and 2004 financial statements are audited to allow comparison.




                                               - 12 -
                     UNITED STATES
            INTERNATIONAL TRADE COMMISSION
                    Notes to the Financial Statements - Continued

                               September 30, 2005 and 2004


Note 1. Significant Accounting Policies - Continued

      Assets - Intragovernmental assets are those assets that arise from transactions with other
      federal entities. Funds with the U.S. Treasury composed the majority ofintragovemmental
      assets on USITC' s balance sheet.

      Financing Sources - The USITC has received a no-year appropriation for operations since
      fiscal year 1993. Appropriations are recognized as revenue and expensed when related
      operating expenses are incurred. Differences between appropriations received and expensed
      are included as unexpended appropriations. Congress appropriated to the USITC
      $61,700,000 and $58,295,000 for salaries and expenses in fiscal years 2005 and 2004,
      respectively. Congress also rescinded funds in the amount of $824,115 and $613,340 for
      fiscal years 2005 and 2004, respectively.

   C. Fund Balances with the u.s. Treasury - Cash receipts and disbursements are processed by
      the Treasury. Fund balance with the Treasury represents appropriated entity funds in the
      custody ofthe U.S. Treasury and is available to pay current liabilities and finance authorized
      purchase commitments. The USITC's obligated and unobligated fund balances are carried
      forward until goods or services are received and payments are made, or until such time as
      funds are deobligated.

   D. General Property, Plant, and Equipment - USITC capitalizes acquisitions with costs
      exceeding $50,000 and useful lives oftwo or more years. Property and equipment consist of
      equipment and software. Depreciation expense is calculated using the straight-line method
      over its estimated economic useful life as follows: software, 7 years; and equipment ranges
      from 5 to 7 years.

      Internal use software development and acquisition costs of $100,000 or more are capitalized
      as software development in progress until the development stage has been completed and the
      software successfully tested. Upon completion and testing, software development-in-
      progress costs are reclassified as internal use software costs and amortized using the straight-
      line method over the estimated useful life. Purchased commercial software which does not
      meet the capitalization criteria is expensed.




                                               - 13 -
                      UNITED STATES
             INTERNATIONAL TRADE COMMISSION
                     Notes to the Financial Statements - Continued

                                September 30, 2005 and 2004


Note 1. Significant Accounting Policies - Continued

   E. Accrued Annual Leave - Annual leave is accrued quarterly, although it is not funded until it is
      used by employees. To the extent current and prior-year appropriations are not available to
      fund annual leave earned but not taken; funding will be obtained from future salaries and
      expenses appropriations. Sick, compensatory, and certain other types of leave are not
      accrued and are expensed when used by the employee.

   F. Net Position - Net position is the residual difference between assets and liabilities and is
      composed of unexpended appropriations and cumulative results operations. Unexpended
      appropriations represent the amount of unobligated and unexpended budget authority.
      Unobligated balances are the amount of appropriations or other authority remaining after
      deducting the cumulative obligations from the amount available for obligation. Cumulative
      results of operations are the net result of USlTC's operations since inception.

   G. Intergovernmental Activities - The USlTC records and reports only those Government-wide
      financial matters for which it is responsible and identifies only those financial matters that
      the USlTC has been granted budget authority and resources to manage.

   H. Use of Estimates - The preparation of the accompanying financial statements requires
      management to make estimates and assumptions about certain estimates included in the
      financial statements. Actual results will invariably differ from those estimates.

   1.   Tax Status - USlTC, as a federal agency, is not subject to federal, state, or local income taxes
        and accordingly, no provision for income taxes is recorded.

   J. Reclassifications - Certain amounts in the 2004 financial statements have been reclassified to
      conform to the 2005 presentation.




                                                 - 14-
              UNITED STATES
     INTERNATIONAL TRADE COMMISSION
            Notes to the Financial Statements - Continued

                      September 30, 2005 and 2004




                                                             2004

                                              Entity      Non-Entity     Total

Intragovemmental:
        Fund balance with Treasury        $ 10,996,653 $     253,036 $
Total intragovernmental                     10,996,653       253,036   11,249,689

Accounts receivable                               6,981      750,000      756,981
Plant, property, and equipment                2,493,449                 2,493,449
Total                                         2,500,430      750,000    3,250,430

       Total assets                       $ 13.497.083 $ 1,003,036 $ 14.500,119




                                     - 15 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                   Notes to the Financial Statements - Continued

                             September 30, 2005 and 2004


Note 2. Non-Entity Assets - Continued

      Non-entity funds include copier fees collected from the public for Freedom of Information
      Act (FOIA), civil penalty fees, and other collections which will be turned over to the U.S.
      Treasury and are not available for use by the USITC. Non-entity assets are assets that the
      USITC holds, but does not have authority to use. A part ofthe fund balance with Treasury is
      non-entity and the remaining is entity. Entity assets are those assets which the reporting
      entity holds and has the authority to use in its operations.

Note 3. Fund Balances with Treasury

                                                               2005              2004
      A. Fund Balances:
            Appropriated Funds                             $ 10,624,125    $ 10,996,653
            Other Fund Types                                    242,786         253,036
               Total                                       $ 10,866,911    $ 11.249,689

      B. Status of Fund Balance with Treasury
             Unobligated Balance
                 Available                                 $   2,194,716    $     777,300
                Unavailable                                                           408
             Obligated Balance not yet Disbursed               5,070,807        7,892,157
                    Total                                  $   7,265,523   $    8.669,865


      Fund Balances with Treasury is the sole intragovemmental asset. The entity fund balance
      represents funds appropriated by Congress for use by the USITC. No entity funds are
      restricted; however, in accordance with Section 605 of Title 5 of Public Law 105-277,
      Congressional approval is required under certain reprogramming or transfer actions.




                                            - 16 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                   Notes to the Financial Statements - Continued

                              September 30, 2005 and 2004


Note 4. Accounts Receivable, Intragovernmental

      Intragovernmental assets arise from transactions among Federal entities. An overpayment for
      rent on the ITC leased building resulted in an Intragovernmental Accounts Receivable in the
      amount of $347,720 on September 30,2005. This amount was credited through IPAC in
      October 2005.

Note 5. Accounts Receivable, Net

      The balance of funds receivable from USITC employees for the parking program is $1,635
      and $6,981 on September 30, 2005 and 2004, respectively.

      A civil penalty was imposed by the USITC in the amount of$ 1,000,000 in fiscal year 2003.
      A receivable was set up in fiscal year 2004, and $250,000 was collected in fiscal years 2005
      and 2004. As a result, there were balances of $500,000 and $750,000 outstanding at
      September 30, 2005 and 2004, respectively.

Note 6. Prepaid Expenses

      The USITC prepaid for parking spaces for employees for fiscal year 2006. Employees who
      participate in the parking program reimburses the agency at a subsidized rate. The amount
      prepaid at September 30, 2005 was $208,000.

Note 7. General Property, Plant, and Equipment, Net

      Major classes of general property, plant, and equipment include: 1) office furniture, fixtures,
      and equipment, and 2) information systems and data handling equipment. Depreciation is
      recorded annually, at the end ofthe fiscal year using straight-line method, based on estimated
      useful lives of seven years and five years, respectively, with a ten percent residual value.




                                              - 17 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                    Notes to the Financial Statements - Continued

                              September 30, 2005 and 2004

Note 7. General Property, Plant, and Equipment, Net - Continued

                                      Acquisition         Accumulated              Net Book
      Fiscal Year 2005                  Value             Depreciation              Value

      Office Furniture, Fixtures,
       and Equipment                   $ 1,438,444            $   924,111         $     514,333
      Software                           3,798,083                991,967             2,806,386

                                       $ 5,236,527            $ 1,915,808         $ 3,320,719

                                      Acquisition         Accumulated              Net Book
      Fiscal Year 2004                  Value             Depreciation              Value

      Office Furniture, Fixtures,
       and Equipment                  $ 1,223,453             $   796,452         $     427,001
      Software                          2,650,499                 584,051             2,066,448

                                      $ 3,873,952             $ 1.380,503         $ 2.493.449

Note 8. Liabilities Not Covered by Budgetary Resources
                                                                       2005

                                                     Entity        Non-Entity           Total

      Intragovemmental
        Other                                 $                    $ 742,786 $
      Total intragovemmental                  $                    $ 742,786 $

      Unfunded leave                           $ 2,948,491         $          -   $
      Total liabilities not covered
       by budgetary                               2,948,491            742,786        3,691,277
      Total liabilities covered by
       budgetary                                  3,707,957                           3,707,957

      Total liabilities                       $ 6,656,448          $ 742,786 $ 7,399,234


                                               - 18 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                    Notes to the Financial Statements - Continued

                              September 30, 2005 and 2004

Note 8. Liabilities Not Covered by Budgetary Resources - Continued

                                                                    2004

                                                  Entity       Non-Entity            Total

      Intragovemmental
        Other                                $               $ 1,003,036 $
      Total intragovemmental                 $               $ 1.003,036 $

      Unfunded leave                         $ 2,960,000      $            -   $
      Total liabilities not covered
       by budgetary                              2,960,000        1,003,036        3,963,042
      Total liabilities covered by
       budgetary                                 2,333,769                         2,333,769

      Total liabilities                       $ 5.293.775     $ 1.003,036 $ 6.296,811



      Intragovemmental: Other liabilities consist ofa civil penalty imposed by the USlTC which,
      upon collection, are held in trust for the U.S. Treasury. Other liabilities also include copier
      fees collected from the public for FOIA and other collections.

      Unfunded Leave: Accrued Annual Leave is the value of leave accumulated by USlTC
      employees which is funded when used. The current portion is dependent upon such use and
      is, therefore, not accurately determinable.

      Liabilities Covered by Budgetary Resources: These current liabilities are accounts payable,
      employer contributions, payroll taxes, accrued funded payroll, withholdings payable, and
      liabilities payable to the public.

Note 9. Contingencies

      USlTC has certain claims and lawsuits pending against it. Provision has been made in
      USlTC's financial statements for losses considered probable and estimable. These amounts
      are considered by management to be immaterial. Management believes that losses, if any,
      from other claims and lawsuits would not be material to the fair presentation of USlTC's
      financial statements.


                                              - 19 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                   Notes to the Financial Statements - Continued

                              September 30, 2005 and 2004


Note 10. Gross Cost by Budget Functional Classification

      The Statement of Net Cost for USITC uses a Budget Functional Classification (BFC) code.
      BFC codes are used to classify budget resources presented in the Budget ofthe United States
      Government per OMB. The Statement of Net Cost for financial purposes is designed to
      summarize Intragovernmental Costs, Costs with the Public, and Costs Not Assigned to
      Programs. The only cost that is included under the section "Costs Not Assigned to
      Programs" is the (decrease)/increase in Annual Leave Liability in the amounts of $(11,516)
      and $40,925 in fiscal years 2005 and 2004, respectively (see note 13). The total Net Cost
      was $61,237,034 and $54,756,811 at September 30, 2005 and 2004, respectively.

Note 11. Prior Period Adjustment

      Prior to fiscal year 2003, many of the EDIS II costs were expensed. All costs were
      recognized as assets and adjusted accordingly in the software account as a prior period
      adjustment in 2004. Accumulated depreciation was calculated for all the costs from January
      1, 2003 through September 30, 2003.

      In addition, there was an acquisition of equipment which was to be recorded as a capital lease
      since fiscal year 2000, but the payments were expensed. In the fiscal year 2003, the
      equipment was bought out by USITC. Prior years were adjusted to book the equipment in
      the asset account and the necessary adjusting entries were made and accumulated
      depreciation was calculated. A prior period adjustment for fiscal year 2003 was made for the
      net addition.

      Prior year fixed asset additions                                        $ 2,908,014

      Accumulated depreciation                                                   (500,089)

                                                                              $ 2,407,925




                                              - 20-
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                   Notes to the Financial Statements - Continued

                              September 30, 2005 and 2004

Note 12. Spending Authority from Offsetting Collections/Adjustments

      Spending authority from offsetting collections consists ofrefunds ofprior year expenditures
      reported to U.S. Treasury as collections. Adjustments include debt obligation ofprior year
      funds.


      Spending authority from offsetting collections         $    14,268      $     14,536

      Recovery of prior year obligations                         636,623          685,329

                                                             $   650,891      $   699,865

Note 13. Explanation of Differences Between Liabilities Not Covered by Budgetary
 Resources and Components Requiring or Generating Resources in Future Periods

      This represents the net increase in accrued annual leave reflected on the balance sheet as a
      liability not covered by budgetary resources.. Costs of this nature are incurred in this
      reporting period and are a component ofnet cost ofoperations. Other liabilities not covered
      by budgetary resources are not a part ofnet cost ofoperations or obligations incurred and are
      not reflected on the Statement of Financing.

Note 14. Non-Exchange Revenue - Custodial Activities

      In fiscal years 2005 and 2004, the USITC functions in a custodial capacity with respect to
      revenue transferred or transferable to recipient government entities or the public. These
      amounts are not reported as revenue to the USITC.

      The USITC collects a civil penalty for the United States pursuant to 19 U.S.C. §1337(£)(2) in
      connection with violations of cease and desist orders. A person who violates a cease and
      desist order can be assessed a civil penalty of up to $100,000 for each day on which a
      violation occurs or up to twice the domestic value of the goods imported or sold in violation
      of the order. Payments are made to USITC and held temporarily by USITC in a custodial
      capacity until remitted to the U.S. Department of the Treasury.

      A civil penalty was imposed by the USITC for $1,000,000 in fiscal year 2003. A receivable
      was set up in fiscal year 2004, and USITC collected $ 500,000, $250,000 ofwhich has been
      remitted to Treasury. As of September 30, 2005 and 2004, USITC has a long-term
      receivable of$500,000 and $750,000, respectively.
                                             - 21 -
